ORIGINAL
Supreme Court, U.S.
FILED

SEP 2 0 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020
IN RE: Gregory Darst, Applicant and ELEVENTH CIRCUIT CAUSE 21-12485-J
With Declarations in Support

EMERGENCY
PETITION FOR WRIT of CERTIORARI TO THE
U.S. COURT OFAPPEALS for the ELEVENTH CIRCUIT
1. To TERMINATE THE PATTERN & PRACTICE
Of APPELLATE COURTS NATIONWIDE
REFUSING TO ADJUDICATE EVERY ISSUE RAISED by
UNREPRESENTED VICTIMS of the
IRS RECORD FALSIFICATION PROGRAM & the
OPEN JUDICIAL SUPPORT THEREOF
And
2. To RE-ENTER MY CORAM NOBIS MOTION
in the CRIMINAL CASE TO WHICH IT BELONGS

Gregory Darst, Pro Se
c/o 11101 Allentown Rd.
Spencerville [45887]
Ohio State
419-277-7670

Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 1

Three Questions Presented for Review
Question 1.
Does a pattern and practice exist whereby appellate courts refuse to adjudicate EVERY
ISSUE presented by the Class of unrepresented litigants appealing issues arising from the
underlying institutionalized IRS record falsification program, and from the open support
thereof by involved U.S. district judges?
Question 2.
Since involved district judges know unrepresented victims have no access to substantive,
meaningful appellate relief, does such setting itself constitute a separate violation of the
due process rights of victims?
Question 3.
Should my Coram Nobis Motion be restored to the criminal case in which it belongs, and
the Hon. Judge Scriven be recused?

Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc.
Pg. 2

TABLE of CONTENTS
Table of Authorities

4

Jurisdictional Statement

6

Statement of the Case.

6

Interleaved Factual Recitation and Litigation History

9

Argument.

11

Notice Requested:
Background - IRS’ Record Falsification Program

12

Judge Scriven’s Orders violate EVERY applicable precedent

14

Judge Scriven’s Orders are both “Final” AND subject to interlocutory appeal...... 15
“ORDERS” denying appellate relief without adjudicating ANY issues
Relief Requested

16
17

Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 3

TABLE of AUTHORITIES
Cases
Bounds v. Smith, 430 US 817 (1977)

FN 20

Crumpackerv. Ciraolo-Klepper, 17-5054, D.C. Circuit

16

DeOrio v. Ciraolo-Klepper, 17-5057, D.C. Circuit

17

DePolo v. Ciraolo-Klepper, 16-5308, D.C. Circuit

16

Digital Equipment Corp. v. Desktop Direct, Inc., 511 US 863, 867 (1994)
Dwaileebe v. Martineau, 17-5058, D.C. Circuit
Ellis v. Comm’r., 15-5035, D.C. Circuit

16, FN 19
17
16, 17, FN 1

Ford v. USA, 18-17217, 9th Circuit

17

Howe v. USA, 21-35125, 9th Circuit.............................

17

Howe v. The Hon. David C. Nye, 21-70662, 9th Circuit.

17

Kurzv. U.S., 19-310
Kurzv. U.S., 19-2985, 8th Circuit

FN 11
FN 11, 17

McGarvin v. Ryan O. McMonagle, 17-5055, D.C. Circuit

16

McNeil v. Comm 'r, 16-5233, D.C. Circ.

16

Moody v. US, 874 F. 2d 1575 - Court of Appeals, 11th Circuit 1989

15

Olmstead v. United States, 277 U.S. 438
Podgornyv. Ciraolo-Klepper, 17-5056, D.C. Circuit
WCGE, LLC v. Gregory A. Darst, etal, 21-cv-832

FN 4, FN 18
16
7, 9

United States v. Bursey, 515 F.2d 1228, 1233 (5th Cir. 1975)

15

United States v. Flanagan, 305 F.Supp. 325, 327 (E.D.Va.1969)

15

United States v. Keogh

15

Darst Petition for Certiorari to 11th Circ To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc Pg. 4

United States v. Marcello, 202 F.Supp. 694, 696 (E.D.La. 1962)

15

United States v. Morgan, 346 U.S. 502, 507, 74 S.Ct. 247, 98 L.Ed. 248 (1954)

14. 15

United States v. Throckmorton, 98 U.S. 61, 1878

FN 21

United States v. Tyler, 413 F. Supp. 1403 - Dist. Court, MD Florida 1976

15

USA v. Gregory Darst, 13-cr-181

7, 10, 13, FN 2, FN 10, FN 13

USA v. Gregory Darst, 21-12485

6, 11, 15,

US v. Denedo, 556 US 904, (2009)
U.S. v. Gregory Darst, 21-1292
US. v. Torrance, 18-1631

14
8

FN 11

Statutes
28U.S.C. § 1651 (a)
28U.S.C. §2255
28 U.S.C. §6020(b)

15
8, 10, 14, 16, FN 5, FN 10, FN 12
13

Rules
Fed.R.Civ.P. 60(b)

15

Publications
Internal Revenue Manual §5.1.11.6.7
Money magazine, April, 1990
Revenue Officer’s Training Manual, (Unit 1, Page 23-2)

FN 15
FN 3
FN 15

Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 5

JURISDICTIONAL STATEMENT
By filing this Petition, I seek to A) confirm the existence of, and to terminate the pattern and
practice of courts of appeal nationwide refusing to adjudicate EVERY issue in EVERY appeal
arising from the underlying IRS record falsification program, and from the open support thereof
by involved U.S. district judges,1 and to B.) secure the return of my Coram Nobis Motion to the
criminal case from which it arose. Involved district judges, aware their victims have only
physical access to appellate courts but not to meaningful relief, enter literal gibberish into the
record of cases, fabricate facts to support the Government, and sometimes violate every
applicable precedent (as has the Hon. Judge Scriven in regard to my Coram Nobis Motion!
On September 15, 2021, the Eleventh Circuit confirmed a briefing schedule in my appeal 2112485, USA v. Gregory Darst. Since 12-12485 is in the Circuit, and since terminating the
antinomian pattern and practice of appellate courts is of such imperative public importance, the
circumstances I relate justify deviation from normal appellate practice and require immediate
determination in this Court, per SCR 11.
Statement of the Case
As detailed below, IRS falsified its internal digital records concerning me for each year 20062009 in order to justify issuing a “notice of levy” against my property, and to initiate a criminal
prosecution against me for willful failure to file.2 That is, IRS’ all-controlling digital records
concerning me for those four years were made to falsely reflect that I supposedly filed 1040/4

i

The practice of courts of appeal was first noted in an appeal arising in the U.S. Circuit Court of
Appeals for the District of Columbia Circuit D.C. Circuit: 15-5035 Ellis v. Comm’r. Merrick
Garland, then Chief Judge of that Circuit, likely has a personal interest in the outcome of this
Petition.
2 Precise details of the IRS program, as it was applied to me, are presented in the sworn
Declaration of Forensic Accountant Robert McNeil [See 13-cr-181, Coram Nobis Motion. Exh.
A, Doc. 119-l.j
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc.
Pg. 6

returns on claimed dates (I didn’t), and that IRS supposedly prepared substitute income tax
returns concerning each year on other claimed but false dates. No such returns exist; no such
events occurred.
The IRS record falsification program, as used to attack me, has spawned four ongoing federal
cases. This Petition is now a fifth. 8:21-cv-832 is a quiet title action concerning my property,
which was removed by the DoJ from Florida State Courts. DoJ is claiming that the “notice of
levy” based on IRS’ falsified records concerning me 2006-2009 supposedly provides the U.S.
standing to intervene in the Florida quiet title action, which concerns property I am selling to Mr.
Yaron David. Restated, IRS used its falsified underlying digital records to justify issuing a
Notice of Levy, which tortiously interfered in the 2009 sale of that property. In 8:21-cv-832, I
am contending the DoJ has no standing or interest in the case, due to the Government’s unclean
hands.
A second federal case arose on May 5, 2021 when I filed my Coram Nobis Motion in 8:13-cr181, the Middle District of Florida case wherein I was convicted before The Hon. Mary Scriven.
By filing my Motion. I seek to expunge that conviction, since IRS provided incontrovertible
evidence the Service falsified its records concerning me. I further contend the existence of the
program supports the Commissioners’ claims the income tax is voluntary3 since no government
agent is authorized to commit crime to enforce a law.4 Hence, I never owed any duty to file.

3 Here are just two of many examples by IRS leaders: "We don't want to lose voluntary
compliance... We don't want to lose this gem of voluntary compliance." Fred Goldberg, IRS
Commissioner, Money magazine, April, 1990. Goldberg confirmed the 1953 SWORN testimony
of Dwight E. Avis, head of the Alcohol and Tobacco Tax Division of the Bureau of the Internal
Revenue before the House Ways and Means Committee of the Eighty-Third Congress: "Let me
point this out now: Your income tax is 100 percent voluntary tax, and your liquor tax is 100
percent enforced tax. Now, the situation is as different as night and day."
4 In Olmstead v. United States, 277 U.S. 438, in Justice Brandeis’ incomparable dissent, he
explained that our Government cannot commit crime: “When these unlawful acts were
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 7

But, as detailed below, and in violation of every applicable precedent concerning such motions,
Judge Scriven “terminated” my Coram Nobis Motion, then ordered the Clerk to open a new civil
case, 8:21-cv-1292. She entered my Coram Nobis into 8:21-cv-1292 as a §2255 petition, refused
my two requests to return the Motion to the criminal case wherein I filed it, and claimed that
“internal administrative procedures” of the Middle District of Florida justified her actions. No
such “procedures” exist. Far worse, NO procedures control post-incarceration coram nobis
motions converted into §2255 petitions (which is relief ONLY available to those in custody).5 So
I was forced to appeal her decisions to the Eleventh Circuit.
I am also aware of the disturbing, emerging pattern and practice of appellate courts refusing to
adjudicate EVERY issue raised on appeal by unrepresented victims of the underlying
institutionalized IRS record falsification program and the open, notorious support thereof by
involved U.S. district judges. That pattern and practice was first evidenced in an appeal arising in
2015 during Mr. Merrick Garland’s term as Chief Judge of the U.S. Court of Appeals for the
D.C. Circuit. Hence, I am bringing my Eleventh Circuit appeal to this Court, to terminate that
pattern and practice begun under Mr. Garland’s leadership, and to restore the independence and
impartiality of courts of appeal.6

committed, they were crimes only of the officers individually. The Government was innocent, in
legal contemplation, for no federal official is authorized to commit a crime on its behalf’.
[Emph. Added.]
51 served and completed the sentence Judge Scriven meted out 7 years ago. A §2255 petition is
not a viable option for me.
6 In their website the Courts of Appeal claim: “The appeals process is a defining feature of an
independent and impartial judiciary. Litigants who are dissatisfied with the outcome at the trial
court level can take their case to the appellate level where judges review the record for possible
errors.” See:
https://www.uscourts.gov/educational-resources/educational-activities/us-courts-appeals-andtheir-impact-your-life#:~:text=The%20appeals%20process%20is%20a,the%20record%20.
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 8

Interleaved Factual Recitation and Litigation History
On September 12, 2013,1 was convicted of willful failure to file and obstructing administration
of the tax laws. Judge Mary S. Scriven presided.
On July 6, 2010, IRS used its falsified records to justify issuing a Notice of Levy, resulting in
IRS’ tortious interference with a contract for sale of my Florida property to Mr. Yaron David.
During the period August 1, 2010 through July 1, 2012, pursuant to the Notice of Levy,7 Mr.
David forwarded to IRS $148,930.00 of payments owed to me. Thereafter, he ceased paying
anything to IRS or to me, including the balloon payment due to me on August 1, 2014. That final
payment is still due and, as of August 1, 2021, totals $2,600,678.60, including principal, interest
and late fees.
On February 7, 2020, Mr. David filed a quiet title action in Florida State Courts concerning the
property I sought to sell him under private contract in 2009.
On April 7, 2021, the quiet title case was removed by the DoJ from Florida State Courts to the
federal court in the Middle District of Florida. That case is pending before the Hon. Kathryn
Kimball Mizelle, cause number 21-cv-832-KKM-JSS8 and is based upon the same falsified IRS
records for 2006-2009, from which the Notice of Levy was derived and upon which my
conviction was based.
On May 5, 2021,1 filed my motion in 21-cv-832 to remand the real estate case to Florida State
Courts, since IRS had falsified its records concerning me for each year 2006-2009, and since

7 The reverse side of a Notice of Levy reveals it is only applicable to federal employees.
8
I am opposing the removal because I contend the U.S. tortiously interfered in the contract, by
using falsified IRS records to justify issuing a “notice of lien” to the purchaser of my property,
who was paying over time. Said differently, in the ongoing quiet title action, the United States
has no standing, since IRS repeatedly falsified its internal records concerning me from 20062009, which were then used to convict me and to tortiously interfere with the private contract for
sale of my property.
Darst Petition for Certiorari to 11th Circ To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 9

litigants with unclean hands can secure no relief from U.S. District Courts.
In 2019, I discovered that IRS had used its institutionalized record falsification program to
justify initiating that prosecution resulting in the 2013 conviction (and the on-going disabilities I
am suffering in regard to the sale of my property). More specifically, although the Government
prosecuted me for willful FAILURE to file, each IRS annual record concerning the targeted four
years 2006-2009 reflects that I supposedly filed a 1040Areturn on claimed dates, and, that IRS
supposedly prepared substitute income tax returns on other claimed dates. No such returns exist
and no such actions occurred.9
On May 5, 2021,1 correctly filed my Coram Nobis Motion in the criminal case in which I was
convicted in 2013, offering The Hon. Judge Scriven incontrovertible, IRS-supplied evidence
proving that the Service had systematically falsified its records concerning me and each year
2006-2009, in order to institute the criminal case against me.
On May 26, 2021, The Hon. Judge Mary S. Scriven “terminated” my Coram Nobis Motion and
converted it to a stand-alone §2255 civil petition.10 Specifically, she
A. “Terminated” my Coram Nobis Motion. [See 13-cr-181, Order, Doc. 120],
B. Claimed that “internal administrative rules” of the Middle District of Florida supposedly
required her to treat it as §2255 motion, (even though no such rules exist), [See 13-cr181, Doc. 123],

9 Since no government agent has authority to commit crimes to enforce laws, existence of the
program proves I owed nothing to the Treasury absent IRS’ falsified records concerning me.
10 Judge Scriven denied two motions I filed in 13-cr-181 seeking return of mv Coram Nobis
Motion to the criminal case in which it belonged, since §2255 petitions can only be filed by those
in custody. (My custody ended August 2014.) She claimed that internal administrative
procedures of the Middle District of Florida authorized her conduct. No such procedure has ever
been published by the U. S. District Court for the Middle District of Florida.
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 10

C. Opened a stand-alone civil case and inserted my Motion therein, despite the fact I long
ago completed the sentence, and am no longer in custody (hence §2255 is not available to
me as a form of relief),
D. Denied my two respectful motions [Doc. 118 and 121] to replace my Coram Nobis
Motion in the criminal case from which it arose (as a “next step” therein), thus she
E. Violated every apposite precedent of this Court and the Eleventh Circuit controlling
coram nobis motions. And then, Judge Scriven
F. Refused to recuse.
ARGUMENT
Introduction
Currently pending in the Eleventh Circuit is my appeal, 21-12485.1 contend the actions of Judge
Scriven, and those occurring in courts of appeal nationwide, prove this application concerns
issues of such imperative public importance as to justify deviation from normal appellate
practice and require immediate determination of the three Questions I am raising in this Court.
Since district judges presiding in income tax-related cases involving unrepresented litigants
appear to know of the pattern and practice of courts of appeal offering mere physical access to
courts but refusing to adjudicate EVERY issue raised, the involved judges KNOW they can
literally enter gibberish into their orders,11 fabricate facts12 and violate every applicable binding

11 For three examples, in a Ninth Circuit case, the Hon. Judge Brennan held: “Lastly, respondent
argument that purported falsified his tax records is unavailing.” [See U.S. v. Torrance, 18-1631,
Doc. 54, pg. 2, 2nd % errors in orig.]
For another example, during a hearing on October 8, 2020 in U.S. v. Torrance, a shocked,
tongue-tied Magistrate (Peterson) stated:
“The issue you are - your points are about the answer to the question. Whether they are the ERS is indeed correct that you owe money. Whether they are indeed correct whether
they have - the specific amounts at issue, and 1 don’t know if any of those are - are
correct. You know, who knows? I don’t know. That information certainly isn’t before
Darst Petition for Certiorari to 11th Circ To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 11

precedent of this Nations’ jurisprudence (as shown below). Judge Scriven’s handling of my
Coram Nobis Motion is but one more example.
Accordingly, in this section, I start with a brief overview of SIX FACTS concerning the
underlying IRS program. I then relate Judge Scriven’s handling of my Coram Nobis Motion.
and, finally, incorporate by reference TWELVE (12) circuit “orders” from across the Nation
denying appellate relief without adjudicating ANY issue raised, a pattern and practice which
MUST be terminated if the Rule of Law is to be restored.
So, although I could raise the issues in my pending Eleventh Circuit appeal, the odds are
overwhelming that they will remain permanently unadjudicated unless this Court acts on it.
Thus, the conscience-shocking circumstances I relate “justify deviation from normal appellate
practice” per SCR 11, and immediate exercise ofthis Court’s supervisory power, per SCR 10(a).
Notice Requested: Background - IRS’ Record Falsification Program
The following SIX facts are incontrovertible.13
a. I was convicted for “willful failure to file” an income tax return, and for supposedly
obstructing the collection of taxes, for the four years 2006-2009,
b. Multiple IRS Leaders/Commissioners have stated that the income tax is “voluntary”.14
me. You are alleging a large conspiracy falsification issue.” [See Hearing Transcript,
Doc. 69, Pg. 22, Line 13, et seq.]
For a third example, this arose in the Eighth Circuit, Kurz v. U.S., 19-29S5. In dismissing Mr.
John Kurz’ case alleging IRS’ institutionalized falsification of records concerning him, the late
Hon. District Judge Shaw fabricated: “Mr. Kurz’s Rule 60 motion alleges that the government...
perpetrated a fraud upon the Court by reducing Mr. Kurz to a ‘standard tax-defier’.” [19-310,
Doc. 61, Pg. 4, 2nd Full f, 1st sent.] Kurz filed no such gibberish. District judges involved in
income tax cases against unrepresented litigants are aware their victims have no access to
appellate relief.
12 As did The Hon. Judge Scriven when she claimed “internal administrative procedures” of the
Middle District of Florida authorized her “termination” of my Coram Nobis, her opening a new
case subject to §2255 procedural requirements, despite the fact I have not been in custody for
several years, (hence §2255 is not an option for me), etc. No such “procedures” exist.
13 For further explicit detail, please see sworn Declaration of Mr. Robert A. McNeil, appended as
support for Coram Nobis Motion, in 13-cr-181, Doc. 119-1.
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 12

c. IRS has repeatedly conceded that the core statute supposedly authorizing preparation of

substitute tax returns, 28 U.S.C. §6020(b), does NOT apply to income tax.15
d. IRS’ core IMF software precisely supports the two concessions in b. and c. above. That
is, the IMF software will “unseat’Vblock entry of any alleged deficiency amount
supposedly owed by a “non-filer,” unless an entry is made reflecting IRS’ receipt of a
return from the targeted “non-filer.” [See sworn Declaration of Forensic Accountant
Robert A. McNeil in my Coram Nobis Motion, in 13-cr-l 81, Doc. 119-1, presenting
evidence published by IRS via its operating manuals, all available to the general public.]
e. IRS repeatedly falsified its core, controlling digital (Individual Master File) records
concerning me for each year 2006-2009 to make the record falsely reflect
1. IRS’ pretended receipt from me, (labeled by IRS as a so-called “non-filer”!), of
1040A returns I supposedly filed for each year 2006-2009 on “January 21,
2014”, when I filed no such documents in my life; and to falsely reflect
2. The pretended preparation by IRS of substitute tax returns for all four years
2006-2009 by IRS on “Feb. 10, 2014” (“02-10-2014”), when IRS responses to
FOIA requests prove that no substitute income tax returns were EVER prepared
by IRS concerning me, let alone on any date shown in IRS records.
In short sum, the systematic, invariable falsification of federal records concerning me16 for each
year 2006-2009 supports the Commissioners’ claims the income tax is voluntary.17 Further, since
Congress could never impose a duty upon Americans which requires the falsification of records

14 See Footnote 2 for two such public statements.
15 The authority to perform substitutes for return is discussed in the Internal Revenue Manual
§5.1.11.6.7, which shows that such authority is limited to matters involving “employment,
excise and partnership taxes”, and does not include the income tax. [Link here:
http://www.irs.gov/irm/part5/irm 05-001-01 lr-cont01.html scroll down to 5.1.11.6.7 “IRC
6020(b) Authority”.] The Privacy Impact Assessment IRS issues concerning 6020(b) precisely
confirms that limitation. [Link here: http://~www.irs.gov/pub/irs-pia/auto 6020b-pia.pdfl In the
Revenue Officer’s Training Manual. (Unit 1, Page 23-2) the Commissioner concedes: “The IRM
restricts the broad delegation shown in figure 23-2 (6020(b))... to employment, excise and
partnership tax returns because of constitutional issues”, Emphasis added.
16 The attached Declaration of forensic accountant Robert McNeil is proof the falsification of
IRS records concerning me is not an isolated incident. In every case involving targeted “nonfilers”, it is IRS’ invariable, institutionalized mode of attack.
17 It is not ME who claims the income tax is voluntary. It is the top administrators of the Internal
Revenue Service. [See Footnote 2 above, for two examples.]
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 13

by a Government agency to enforce,181 could not “fail to file.” I owed no duty to the Treasury,
absent falsified IRS records.
Notice Requested: Judge Scriven’s Orders violate EVERY applicable precedent
As shown next, Ms. Scriven appears to have violated every applicable precedent controlling the
processing of coram nobis motions.
A.

Supreme Court Precedent

In U.S. v. Denedo, 556 US 904, (2009) the Supreme Court affirmed its determination in United
States v. Morgan that coram nobis motions are considered as a next step in the underlying
criminal case, and NOT as a stand-alone §2255 petition or §2241 habeas corpus:
“The writ of coram nobis is an ancient common-law remedy designed "to correct errors
of fact." United States v. Morgan. 346 U.S. 502. 507. 74 S.Ct. 247. 98 L.Ed. 248 (1954V.
and
“Because coram nobis is but an extraordinary tool to correct a legal or factual error, an
application for the writ is properly viewed as a belated extension of the original
proceeding during which the error allegedly transpired. See Morgan, suvra. at 505. n.
4, 74 S.Ct. 247 (coram nobis is "a step in the criminal case and not, like habeas corpus
where relief is sought in a separate case and record, the beginning of a separate civil
proceeding"). U.S. v. Denedo, 556 US 904, 2009.
There is no need to multiply authorities. Judge Scriven’s decision to treat my Coram Nobis
Motion as a stand-alone §2255 petition violates binding Supreme Court precedent.
B. Eleventh Circuit Precedent
The Eleventh Circuit has confirmed that a coram nobis motion is a continuation of the
underlying criminal case.
“In United States v. Morgan. 346 U.S. 502, (19541 (5-4 decision), the sharply-divided
Supreme Court determined that the broad all-writs section of the judicial code bestows on
18 In Olmstead v. United States, 277 U.S. 438, in Justice Brandeis’ incomparable dissent, he explained
that our Government cannot commit crime: “When these unlawful acts were committed, they were crimes
only of the officers individually. The Government was innocent, in legal contemplation, for no federal
official is authorized to commit a crime on its behalf \ [Emph. Added.]
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 14

federal courts the authority to issue writs in the nature of coram nobis. Id. at 511, 74 S.Ct.
at 252... The Morgan majority, after examining those errors for which the writ was
issued at common law, wrote: "Continuation of litigation after final judgment and
exhaustion or waiver of any statutory right of review should be allowed through this
extraordinary remedy only under circumstances compelling such action to achieve
justice." 346 U.S. at 507-11. Such compelling circumstances exist only when the error
involves a matter of fact of the most fundamental character which has not been put in
issue or passed upon and which renders the proceeding itself irregular
and invalid. Morgan. 346 U.S. at 512, 74 S.Ct. at 253.” See Moody v. US, 874 F. 2d
1575 - Court of Appeals, 11th Circuit 1989. [Emp. Added.]
Even precedent from the Middle District of Florida contravenes Judge Scriven’s decision to
convert my Coram Nobis Motion into a stand-alone civil case. For example, in United States v.
Tyler, 413 F. Supp. 1403 - Dist. Court, MD Florida 1976, The Hon. Charles R Scott
persuasively confirmed:
“[A] petition for writ of error coram nobis ‘is a step in the criminal case and not, like
habeas corpus where relief is sought in a separate case and record, the beginning of a
separate civil proceeding.’ United States v. Morgan. 346 U.S. at 505 n.4: United States v.
Bursev. 515 F.2d 1228. 1233 (5th Cir. 1975); United States v. Keogh: United States v.
Flanaean. 305 F.Supp. 325. 327 (B.D.Va. 1969T United States v. Marcello, 202 F.Supp.
694. 696 (E.D.La. 19621. The reason for this is that under Fed.R.Civ.P. 60(b), coram
nobis has been abolished for original civil actions; and the Court's authority to issue writs
of error coram nobis stems from the ‘all writs’ provision of 28 U.S.C. Sec. 1651(a).”
In sum, in regard to my Coram Nobis Motion. Judge Scriven has violated every applicable
precedent of the Supreme Court and Eleventh Circuit, even contravening long-established
persuasive precedent of the Middle District of Florida, of which she knows or should have
known.
Notice Requested: Judge Scriven’s Orders are both “Final” AND subject to interlocutory appeal
On August 26, 2021, in 21-12485, my appeal in the Eleventh Circuit, the Clerk of that Court
asked the parties to confirm the Circuit’s jurisdiction of the appeal. I request this Court judicially
notice my respectful filing on September 9, 2021 in 21-12485 of my Response to Jurisdictional
Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 15

Question, wherein I explained that Judge Scriven’s orders of June 21, 2021, [Doc. 123] and July
14, 2021 [Doc. 128], (wherein she terminated my Coram Nobis Motion, refused to return it to the
criminal case to which it properly belongs, improperly converted it to a §2255 petition (which I
can’t file since not in custody), fabricated the existence of “internal administrative procedures” to
justify her actions, violated binding precedence of THIS Court and the Eleventh Circuit., etc.),
are both “final” appealable orders, AND subject to interlocutory appeal, pursuant to this Court’s
holding in Digital Equipment Corp. v. Desktop Direct, Inc., 511 US 863, 867 (1994).19 The
Government disagreed with me.
Apparently the Eleventh Circuit agreed with me, issuing a briefing schedule on September 15,
2021. In short sum, Judges Scriven’s orders are conscience-shocking, and I properly appealed
them to the Eleventh Circuit. And now I have properly removed them here.
Notice Requested: “ORDERS” denying appellate relief without adjudicating ANY issues
Finally, the Court is requested to notice that in appeals arising from the underlying IRS record
falsification program and from the open support thereof by involved district court judges, not one
issue raised has ever been adjudicated. That is, the Court is requested to judicially notice the
refusal of appellate judges to adjudicate EVERY ISSUE raised in the following TWELVE
appeals, (most fully-paid), all of which orders are incorporated fully herein by reference:
■
■
■
■

USCA,D.C.
USCA, D C.
USCA, D C.
USCA, D.C.

Circ.
Circ.
Circ.
Circ.

15-5035 Ellis v. Comm’r,
16-5233 McNeil v. Comm V,
16-5308 DePolo v. Ciraolo-Klepper,
17-5054 Crumpacker v. Ciraolo-Klepper,

19 In Digital Equipment, this Court held that interlocutory orders are appealable if they are
1. “Conclusive”,
2. “Resolve important questions completely separate from the merits”; and
3. “Would render such important questions effectively unreviewable” if an appeal is
delayed until after a final trial.
Judge Scriven’s orders terminating my Coram Nobis Motioa etc., fit the three required indicia
perfectly, as I explained in my Response to Jurisdictional Question, filed on Septemberl4, 2021.
Darst Petition for Certiorari to 11* Circ To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Caram Nobis Motion into Crim Case, & Etc. Pg. 16

■
■
■
■
■
■
■
■

USCA, D.C. Circ. 1.7-5055McGarvin v. RyanO. McMonagle,
USCA, D.C. Circ. 17-5056 Podgomy v. Ciraolo-Klepper,
USCA, D.C. Circ. 17-5057 DeOrio v. Ciraolo-Klepper,
USCA, D.C. Circ. 17-5058Dwaileebe v. Martineau,
USCA, 9th Circuit 18-17217Fordv. USA,
USCA, 8th Circuit 19-2985 Kurz v. USA, and
USCA, 9th Circuit 21-35125 Howe v. USA.
USCA, 9th Circuit 21 -70662 Howe v. The Hon. David C. Nye.

The Court is further requested to notice that since no issues were adjudicated, the authors
simultaneously destroyed the jurisdiction of this, the Supreme Court, over the issues raised. The
circuit judges “left nothing to be appealed.” The Court is also requested to notice that the pattern
was first evidenced in 15-5035, Ellis v. Comm’r arising in the U.S. Court of Appeals for the
District of Columbia, under the leadership of Mr. Merrick Garland, then Chief Judge.
I contend that the obstruction of justice, now meted out by appellate courts nationwide, which
ONLY occurs in appeals raised by unrepresented litigants, is neither adequate, effective or
meaningful, as required by law.20 It is an invidious class-based assault on the due process rights
of unrepresented Americans.
As a final note, since “Fraud vitiates everything, judgments as well as contracts, «21 each of the
Circuit orders listed above and incorporated herein by reference can never be ‘final’, hence are
appealable to the end of time. Thus, the Rule of Law should be vindicated here... now.
Relief Requested
I request that this Court
A. Confirms the existence of the pattern and practice of courts of appeal to refuse
adjudicating every issue raised on appeal by unrepresented victims of both the IRS record
falsification program and the open support thereof by district judges;

20 See Bounds v. Smith, 430 US 817 (1977).
21 United States v. Throckmorton, 98 U.S. 61, 1878.
Darst Petition for Certiorari to 11th Circ To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 17

•«

Verification/Declaration
Comes now Gregory A. Darst, with personal knowledge of the admissible facts related above
and competent to testify thereto, pursuant under penalty of perjury pursuant to 28 USC §1746,
that the facts stated in the foregoing “Petition for Writ of Certiorari” are absolutely true and
correct to the very best of my knowledge and belief, So HELP ME GOD.
Executed on September 20, 2021
By:

Greg

Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 19

